           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


   SUPPLEMENTAL SECURITY INCOME
     DOUBLE CHECK NEGOTIATIONS

     January 2011   A-06-10-20144




AUDIT REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a g e n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                           SOCIAL SECURITY
MEMORANDUM

Date:      January 28, 2011                                                                Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Supplemental Security Income Double Check Negotiations (A-06-10-20144)


           OBJECTIVE
           Our objective was to determine whether recent actions taken by the Social Security
           Administration (SSA) were effective in preventing and recovering double check
           negotiations (DCN).

           BACKGROUND
           Supplemental Security Income (SSI) is a Federal income supplement program designed
           to help aged, blind, and disabled people who have little or no income. SSI provides
           cash to meet basic needs for food, clothing, and shelter. General tax revenues, not
           Social Security taxes, fund SSI payments.

           SSA has procedures to replace monthly SSI checks that recipients claim they did not
           receive. 1 SSA issues replacement checks immediately, except when SSA makes a
           decision to delay payment to obtain the status of the original check before replacement.
           SSA can exercise this option when information is available to indicate a recipient
           misused the replacement check process within the last 24 months.

           A DCN occurs when someone cashes both the original and replacement check. 2
           Further investigation of the DCN is often needed to determine whether the
           representative payee or recipient actually cashed both checks or if forgery by an
           unauthorized individual was involved.




           1
            SSA, Program Operations Manual System (POMS), GN 02406.002.B, Nonreceipt Processing and the
           Robinson/Reyf Class Action Suit.
           2
               SSA, POMS, GN 02406.001, Glossary of Nonreceipt Terms.
Page 2 - The Commissioner


In a prior audit, 3 we found that the number of DCNs and related overpayments had
increased significantly at the time of our review. In a follow-up review, 4 we concluded
that DCNs had declined compared to our earlier audit period, but SSA could benefit by
taking additional steps to prevent and recover DCN overpayments.

For our current audit, we obtained data from 1 of 20 Supplemental Security Record
segments identifying 10,719 DCNs, totaling $5.9 million, that occurred from
January 2007 through December 2009. Based on these data, we estimated that
approximately 214,000 DCNs, totaling about $118 million, occurred from January 2007
through December 2009. See Appendix B for a discussion of our scope and
methodology.

RESULTS OF REVIEW
Recent actions taken by SSA have been effective in preventing SSI DCNs. The total
number of DCNs has declined steadily since 2002. System controls implemented in
June 2007 have been effective in preventing instances where individuals commit
multiple DCNs. In addition, based on our sample results, SSA has been effective in
recovering overpayments from recipients who commit DCNs. Further, the Department
of the Treasury (Treasury) recently announced an initiative to eliminate paper checks for
all Social Security benefit payments by March 2013. 5 Implementation of this initiative
will eliminate replacement checks and related DCNs.

Number of SSI DCNs Has Declined Sharply Since 2002

The downward trend in the number of SSI DCNs discussed in our September 2006
report has not only continued but has accelerated. The number of DCNs our
September 2006 report identified for the 12-month period ended March 2005 decreased
by about 18 percent from the level identified for the 12-month period ended March 2002
(from 135,269 to 110,916). However, the number of DCNs identified in Calendar
Year 2009 (59,500) decreased by an additional 46 percent when compared to the
number of DCNs identified for the 12-month period ended March 2005.




3
    Controls Over Supplemental Security Income Replacement Checks (A-05-03-13010), September 2003.
4
 Follow-up Review of Controls over Supplemental Security Income Replacement Checks
(A-05-06-26058), September 2006.
5
 Treasury Department Press Release TG-644, Treasury Goes Green, Saves, Green Broad New Initiative
Will Increase Electronic Transactions, Save More Than $400 Million, 12 Million Pounds of Paper in First
Five Years Alone, April 19, 2010.
Page 3 - The Commissioner


                              Total Number of SSI DCNs
     150,000
                135,269
                            131,164
                                        125,313
     120,000                                        110,916

      90,000                                                      86,500
                                                                               68,380
                                                                                           59,500
      60,000


      30,000


          0
               Apr 2001 to Apr 2002 to Apr 2003 to Apr 2004 to   Jan to Dec   Jan to Dec   Jan to Dec
                Mar 2002    Mar 2003    Mar 2004    Mar 2005        2007         2008         2009


    Note: We did not obtain DCN data for April 2005 through December 2006.

Corrective Actions Taken by SSA

SSA staff attributed the decline in the number of DCNs to such factors as improved
training, increased use of electronic deposit, enhanced regional office oversight, and
enhanced use of administrative sanctions against DCN perpetrators. Another factor in
the continuing decline of the number of DCNs was the June 2007 implementation of
automated system controls designed to identify possible indicators of DCN abuse on a
recipient’s payment record before replacement check issuance. 6 In March 2008, SSA
also required that a second SSA employee approve certain replacement check
issuances. 7

DCN Overpayment Recovery

Based on our sample review, SSA’s actions to collect DCN-related overpayments were
effective. We reviewed 50 randomly selected DCNs, totaling $26,443, that occurred
between January 2007 and December 2009. As of July 2010, SSA had recovered
100 percent of the overpayments from 43 of the 50 recipients. SSA was collecting five
DCNs, totaling $1,754; had not yet collected one DCN, totaling $623, because the
recipient could not be located; and erroneously waived the collection of one DCN,
totaling $623. 8


6
  The DCN Wizard, an electronic application designed to identify double check negotiation abuse and
help determine the correct action when a beneficiary reports nonreceipt of a check, was made available
for use by all SSA field offices.
7                                         nd
 Emergency Message 08042 SEN, 2 PIN Required for B-STOP Inputs for Certain Title XVI Non-
Receipt Transactions, dated March 20, 2008.
8
  SSA’s records contained no documentation to explain or justify this waiver. Dallas Region personnel
reviewed this case and concluded the waiver was not justified.
Page 4 - The Commissioner


Proposed Treasury Initiative

In April 2010, Treasury announced an initiative to eliminate paper checks for benefit
payments. 9 Per this initiative, by March 1, 2013, Treasury will issue all Social Security
benefit payments by direct deposit to a bank account or via the Direct Express debit
card. 10 The total dollar value of all 2009 DCNs was approximately $34 million.
Implementation of the initiative will eliminate the possibility of lost or stolen paper
checks, prevent millions of dollars of DCNs each year, and save SSA staff resources
spent issuing replacement checks and collecting related overpayments.

CONCLUSION
SSA has taken effective action to prevent and reduce SSI DCNs. The number of DCNs
has declined significantly since 2002. A number of factors, including implementation of
enhanced payment system controls contributed to this positive trend. Our sample
results also indicated that SSA effectively recovered overpayments from recipients who
committed DCNs. We commend SSA for actions taken to address this issue. Further,
Treasury recently announced plans to implement a requirement that, by March 2013, all
Social Security benefit payments be issued via direct deposit or via Direct Express debit
card. Full implementation of the Treasury initiative will eliminate replacement check
issuance and related DCNs.

AGENCY COMMENTS
SSA stated it plans to implement the Treasury initiative in two stages. Beginning in
May 2011, SSA will pay all newly entitled Social Security beneficiaries and SSI
recipients electronically. By March 2013, Social Security beneficiaries and SSI
recipients receiving paper checks must switch to direct deposit. SSA’s comments are
included in Appendix C.




                                                           Patrick P. O’Carroll, Jr.




9
    See Footnote 5.

10
  The Direct Express card is a Treasury-sponsored prepaid debit card made available to Social Security
beneficiaries and SSI recipients.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Agency Comments
APPENDIX D – OIG Contacts and Staff Acknowledgments
                                              Appendix A

Acronyms
DCN        Double Check Negotiation
OIG        Office of the Inspector General
POMS       Program Operations Manual System
SSA        Social Security Administration
SSI        Supplemental Security Income
Treasury   Department of the Treasury
                                                                      Appendix B

Scope and Methodology
To accomplish our objective, we:

• Reviewed pertinent sections from the Social Security Act and the Social Security
  Administration’s (SSA) Program Operations Manual System.

• Reviewed prior Office of the Inspector General (OIG) report, Follow-up Review of
  Controls over Supplemental Security Income Replacement Checks (A-05-06-26058).

• Interviewed staff from the Dallas Regional Office to determine the status of collection
  and corrective action taken on double check negotiations (DCN) during the period
  under review.

• Obtained and reviewed data from 1 of 20 Supplemental Security Record segments
  identifying 10,719 DCNs, totaling $5,909,740, that occurred from January 2007
  through December 2009. Based on these data, we estimated that approximately
  214,000 DCNs, totaling about $118 million, occurred within all 20 Supplemental
  Security Record segments from January 2007 through December 2009.

• Randomly selected 50 DCNs from our data file and determined the current collection
  status of related overpayments.

• Obtained summary Supplemental Security Income DCN data from the Office of the
  Deputy Commissioner for Operations for Calendar Years 2007 through 2009 and
  compared the data to our estimates for the same period. Our estimates were
  consistent with the Operations data.

We performed our review from May to September 2010 in Dallas, Texas. We tested the
data obtained for our audit and determined it to be sufficiently reliable to meet our
objectives. The entity audited was the Office of the Deputy Commissioner for
Operations. We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe that
the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives.
                  Appendix C

Agency Comments
                                          SOCIAL SECURITY
MEMORANDUM


Date:      January 11, 2011                                                        Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Dean S. Landis /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, “Supplemental Security Income Double
           Check Negotiations” (A-06-10-20144)--INFORMATION


           Thank you for recognizing the actions we have taken to reduce the volume of Supplemental
           Security Income (SSI) double check negotiations (DCN) and our efforts to recover DCN
           overpayments.

           As you noted, the volume of DCNs will further decline as we implement the All Electronic
           Treasury initiative, which requires us to issue Social Security benefits electronically via direct
           deposit or Direct Express debit card by March 2013. We plan to implement this initiative in two
           stages:

              •   Beginning May 2011, we will pay newly entitled Social Security beneficiaries and SSI
                  recipients electronically.

              •   By March 2013, Social Security beneficiaries and SSI recipients receiving paper checks
                  must switch to direct deposit.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Rebecca Tothero, Acting Director, Audit Management and Liaison Staff, at (410) 966-6975.
                                                                       Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Ronald Gunia, Director, Dallas Audit Division

   Jason Arrington, Audit Manager

   Neha Smith, Audit Manager

Acknowledgments

In addition to those named above:

   Warren Wasson, Senior Auditor

   Alla Resman, IT Specialist

For additional copies of this report, please visit our Website at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Staff Assistant at
(410) 965-4518. Refer to Common Identification Number A-06-10-20144.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
